                                                                                  Issue Date
                                                                                          March 29, 2012
                                                                                   
                                                                                  Audit Report Number
                                                                                          2012-CH-1006




TO:                Shawn Sweet, Director of Cleveland’s Public Housing Hub, 5DPH
                   Maurice McGough, Director of Fair Housing and Equal Opportunity Hub,
                   5AEH



FROM:              Kelly Anderson, Regional Inspector General for Audit, 5AGA

SUBJECT: Cuyahoga Metropolitan Housing Authority, Cleveland, OH, Did Not Operate Its
           Section 8 Housing Choice Voucher Program According to HUD’s
           Requirements

                                               HIGHLIGHTS

    What We Audited and Why

                    We audited the Cuyahoga Metropolitan Housing Authority’s Section 8 Housing
                    Choice Voucher program. The audit was part of the activities in our fiscal year
                    2012 annual audit plan. We selected the Authority based upon our analysis of
                    risk factors relating to the housing agencies in Region V’s1 jurisdiction. Our
                    objective was to determine whether the Authority administered its program in
                    accordance with applicable U.S. Department of Housing and Urban Development
                    (HUD) requirements and the Authority’s program administrative plan to include
                    determining whether the Authority (1) correctly analyzed households’ income and
                    performed subsidy determinations in accordance with Federal and its
                    requirements, (2) appropriately followed HUD’s and its conflict-of-interest
                    requirements, and (3) administered its program waiting list in accordance with
                    Federal and its requirements. This is the second of two planned audit reports on
                    the Authority’s program.




1
    Region V includes the States of Indiana, Illinois, Ohio, Michigan, Minnesota, and Wisconsin.
What We Found

         The Authority did not comply with HUD’s requirements and its program
         administrative plan when issuing housing assistance and utility allowance
         payments. It failed to consistently compute payments accurately and maintain
         documentation to support all payments to program owners and households. The
         Authority incorrectly calculated housing assistance and utility allowances for 47
         (58.8 percent) households in one or more certifications. Of the 80 household files
         statistically selected for review, 35 files (43.8 percent) were missing or contained
         incomplete or late documents. Based upon our statistical sample, we estimate that
         over the next year, the Authority will overpay more than $1.4 million in housing
         assistance and utility allowances.

         The Authority did not follow HUD’s and its requirements and the Ohio Revised
         Code regarding conflict-of-interest provisions. The Authority’s employees failed
         to identify conflicts of interest with themselves, relatives, business associates, and
         close friends who were participants in the Authority’s Housing Choice Voucher
         program as landlords or tenants. Also, the Authority failed to ensure that a third-
         party inspector performed inspections of Authority-owned units.

         The Authority did not follow HUD’s requirements regarding its waiting list. It
         inappropriately added applicants to a closed waiting list. The Authority failed to
         appropriately comply with the voluntary compliance agreement made between
         HUD’s Fair Housing and Equal Opportunity Division and the Authority. Also, its
         internal controls for access to the waiting list did not ensure that the waiting list
         was reasonably safeguarded against unauthorized use.

What We Recommend

         We recommend that the Director of HUD’s Cleveland Office of Public Housing
         require the Authority to (1) reimburse its program from non-Federal funds for the
         improper use of more than $274,000 in program funds, (2) provide documentation
         or reimburse its program more than $390,000 from non-Federal funds for the
         unsupported housing assistance payments, and (3) implement adequate
         procedures and controls to address the findings cited in this audit report to prevent
         more than $1.4 million in program funds from being spent on excessive housing
         assistance payments over the next year.

         We also recommend that the Director of HUD’s Columbus Office of Fair Housing
         and Equal Opportunity review the Authority’s household selections to ensure that
         the Authority complies with HUD’s requirements. If the Authority fails to
         comply with HUD’s requirements, the Director should take appropriate action
         against the Authority and its employee(s). We further recommend that the
         Director (1) conduct a compliance and technical assistance review for the
         voluntary compliance agreement to ensure that HUD and the Authority


                                           2
           understand the expectations of the agreement and appropriately comply with it
           and (2) require the Authority to submit a status update of its Money Follows the
           Person Rebalancing Initiative and 5-year mainstream housing choice vouchers.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our review results and supporting schedules to the Director of
           HUD’s Cleveland Office of Public Housing and the Authority’s interim chief
           executive officer during the audit. We provided our discussion draft audit report
           to the Authority’s interim chief executive officer, its board chairman, and HUD’s
           staff during the audit. We held an exit conference with the interim chief
           executive officer on February 27, 2012.

           We asked the interim chief executive officer to provide comments on our
           discussion draft audit report by March 14, 2012. The interim chief executive
           officer provided written comments, dated March 14, 2012. The executive director
           disagreed with our findings and recommendations. The complete text of the
           written comments, along with our evaluation of those comments, can be found in
           appendix B of this report except for 150 pages of documentation that was not
           necessary for understanding the Authority’s comments.




                                            3
                            TABLE OF CONTENTS

Background and Objective                                                             5

Results of Audit

      Finding 1: The Authority Did Not Comply With HUD’s Requirements and Its
                 Program Administrative Plan                                         6

      Finding 2: The Authority Did Not Follow HUD’s, the State of Ohio’s, and Its
                 Requirements Concerning Conflicts of Interest                      11

      Finding 3: Controls Over the Authority’s Waiting List Were Not Adequate       17

Scope and Methodology                                                               23

Internal Controls                                                                   26

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use                28
   B. Auditee Comments and OIG’s Evaluation                                         29
   C. Federal Requirements and the Authority’s Administrative Plan                  51




                                            4
                        BACKGROUND AND OBJECTIVE

The Cuyahoga County, OH, Metropolitan Housing Authority, established in 1933 pursuant to
sections 3735.27 and 3735.50 of the Ohio Revised Code, was the Nation’s first public housing
authority to provide safe and sanitary housing to low-income families. The passage of the
United States Housing Act in 1937 enabled the Authority to provide federally subsidized
housing. Following the passage of the Federal Housing Act of 1974, the Authority began
administering the Section 8 rental housing assistance program. The Authority’s jurisdiction
includes all of Cuyahoga County, except for Chagrin Falls Township. The Authority is a
political subdivision of the State of Ohio and is governed by a five-member board of
commissioners appointed for 3-year terms by local elected officials. The board governs the
business, policies, and transactions of the Authority. The chief executive officer is appointed by
the board and has the overall responsibility of carrying out the board’s policies and managing the
Authority’s day-to-day operations. The Authority’s is located at 8120 Kinsman Road,
Cleveland, OH. As of December 31, 2011, the Authority had 13,912 Section 8 voucher units
under contract (96.5 percent) of its authorized 14,418 vouchers and the annual housing assistance
payments totaled more than $90.5 million in program funds.

With regards to the fiscal year 2012 Appropriations Act, the Authority has net restricted assets of
$11 million, as calculated by HUD and confirmed by the Authority.

HUD’s Quality Control for Rental Assistance Subsidies Determinations Study; Final Report for
FY 2009; prepared by: ICF Macro International Calverton, Maryland determined that the rate of
rent overpayments and underpayments was at 21 percent in the PHA–administered Section 8
program. This study provided national estimates for the extent, severity, costs, and sources of rent
errors in tenant subsidies for the public housing authority administered Section 8 Housing Choice
Voucher program. This study did not involve an audit of individual public housing authorities or
projects, nor did it monitor the implementation of housing programs. Its focus was on identifying
households where an error was made when calculating the amount of household’s rent and providing
nationally representative findings related to those errors. The Study identified that the Authority had
a 15.6 percent overpayment error rate.

Our objective was to determine whether the Authority administered its Section 8 Housing Choice
Voucher program in accordance with HUD’s requirements and its program administrative plan to
include determining whether it (1) correctly performed income analysis and subsidy
determination according to Federal and its requirements, (2) followed HUD’s and its conflict-of-
interest requirements, and (3) administered its program waiting list according to Federal and its
requirements.




                                                   5
                                 RESULTS OF AUDIT

Finding 1: The Authority Did Not Comply With HUD’s Requirements
and Its Program Administrative Plan

The Authority did not comply with HUD’s requirements and its program administrative plan
when issuing housing assistance and utility allowance payments. It failed to consistently
compute payments accurately and maintain documentation to support all payments to program
owners and households. These deficiencies occurred because the Authority lacked adequate
procedures and controls to ensure that its calculations were accurate and that HUD’s
requirements and its plan were appropriately followed. As a result, it overpaid nearly $56,000
and underpaid nearly $11,000 in housing assistance and utility allowances and was unable to
support more than $390,000 in housing assistance and utility allowances paid. Based upon our
statistical sample, we estimate that over the next year, the Authority will overpay more than $1.4
million in housing assistance and utility allowances.


 The Authority Made Incorrect
 Housing Assistance and Utility
 Allowance Payments


               We statistically selected 80 household files from a universe of 16,100 households
               that received housing assistance payments during the period January 2009 through
               September 2010, using data-mining software. The 80 files were reviewed to
               determine whether the Authority accurately verified and calculated the income
               information received from households for their housing assistance and utility
               allowances for the period March 1, 2008, through August 30, 2011. Our review
               was limited to the information maintained by the Authority in its household files.

               According to HUD’s regulations at 24 CFR (Code of Federal Regulations)
               5.240(c), public housing authorities must verify the accuracy of the income
               information received from program households and change the amount of the
               total household payment, household rent, or program housing assistance payment
               or terminate assistance, as appropriate, based on such information.

               The Authority incorrectly calculated housing assistance and utility allowances for
               47 (58.8 percent) of the 80 households in one or more certifications. This error
               rate is nearly three times the error rate established in HUD’s Quality Control for
               Rental Assistance Subsidies Determinations Study, final report for fiscal year
               2009. The report identified the national error rate to be 21 percent for the
               program. The 47 files contained miscalculations of the households’ annual
               income and income deductions and the use of an incorrect utility reimbursement
               schedule and incorrect payment standard. The Authority’s miscalculations




                                                6
            resulted in overpayments of $55,775 and underpayments of $10,915 in housing
            assistance and utility allowances.

            Of the $55,667 in overpaid housing assistance and utility allowances, $32,419 (29
            households) was a result of the Authority’s calculation errors, and $23,011 (7
            households) was a result of households’ underreporting income to the Authority.
            However, the Authority’s files contained the correct income information for the
            seven households. The files contained reports from HUD’s Enterprise Income
            Verification system, child support verification reports, third-party income
            verifications, or payroll stubs showing the correct income information. The
            $10,915 (21 households) in underpaid housing assistance and utility allowances
            was a result of the Authority’s calculation errors.

            The 47 files contained the following errors:

                  38 had annual income calculation errors by the Authority for 1 or more
                   certifications,
                  21 had incorrect income verifications for 1 or more certifications,
                  18 had incorrect income adjustments for 1 or more certifications,
                  7 had unreported income by the households for 1 or more certifications,
                  4 had incorrect payment standards for 1 or more certifications,
                  2 had incorrect voucher size for 1 or more certifications, and
                  1 failed to identify a tenant’s disabilities.

            The Authority received $5,924 in program administrative fees related to the 47
            households that were overpaid housing assistance and utility allowances due to its
            errors for the period March 1, 2008, through August 30, 2011. In accordance with
            24 CFR 982.152(d), HUD may reduce or offset any administrative fee to public
            housing authorities, in the amount determined by HUD, if the authorities fail to
            perform their administrative responsibilities correctly or adequately under the
            program.

Household Files Lacked
Eligibility Documentation


            The Authority lacked documentation to support housing assistance and utility
            allowance payments totaling $390,463 for the period March 1, 2008, through
            August 30, 2011. Of the 80 household files statistically selected for review, 35
            files (43.8 percent) were missing or contained incomplete or late documents as
            follows:

                  26 had annual certifications that were late for one or more certifications;
                  18 did not have the lease and housing assistance payments contract
                   executed within 60 days of each other;
                  14 were missing the lease;
                  14 were missing evidence of criminal background checks;


                                             7
                 13 were missing a rent reasonableness determination for the leased unit;
                 12 were missing a housing assistance payments contract;
                 11 were missing the form HUD-52517, Request for Tenancy Approval;
                 10 were missing the original application;
                 6 were missing the lead-based paint form;
                 3 were missing Social Security cards, birth certificates, and forms
                   HUD-214 for those claiming to be U.S. citizens; and
                 2 were missing authorization of release of information.

           The 35 files did not include documentation required by HUD’s regulations and
           the Authority’s program administrative plan. Of the required documentation to
           support housing assistance payments and utility allowances, the disclosure of
           information on lead-based paint and the original application were not a
           determining factor in the computation of the unsupported housing assistance
           payments cited in this audit report.

           The Authority replaced HUD’s Request for Tenancy Approval, form HUD-
           52517, with its own form without obtaining HUD approval. When this matter
           was brought to the attention of the Authority and HUD’s Cleveland Office of
           Public Housing during the audit, the field office issued an approval to use the
           form. However, HUD headquarters stated that it had not delegated the authority
           for approving changes to HUD-required forms to its field offices. In a future
           release of the regulations, HUD will add language to the regulations to clarify that
           this form is required since 24 CFR 982.302(d) can be misunderstood to mean that
           a public housing authority may create its own form for this purpose. The
           Cleveland Office of Public Housing said that it would forward the request for
           approval of the form HUD-52517 to HUD headquarters. Therefore, we did not
           take exception with the Authority for using its request for tenancy approval form.

The Authority’s Management
Did Not Protect HUD’s Interest

           The weaknesses regarding incorrect calculations, inappropriate payments, and
           missing documentation occurred because the Authority lacked adequate
           procedures and controls to ensure that it appropriately followed HUD’s
           regulations and its program plan. Although the Authority’s process for
           performing certifications required its eligibility specialists to review previous file
           documentation, it did not require them to review for errors. Therefore, if an error
           was made on a prior certification, that error could continue from one certification
           to the next. However, this was not the only cause for the incorrect calculations of
           housing assistance payments and utility allowances. Thirty-eight errors were
           made in calculating household income for one or more certifications as a result of
           the failure to collect and complete the appropriate eligibility documentation.

           The Authority conducted peer reviews, and its supervisors conducted monitoring
           reviews of the certifications. The supervisory reviews were performed in the


                                             8
                 same manner as the certifications that the housing specialists performed.
                 Although the Authority had external and internal training processes and
                 performed monitoring reviews of the certifications, the certification errors
                 occurred. Therefore, additional procedures and controls are needed to ensure full
                 implementation of HUD’s regulations and the Authority’s program plan.
                 According to its Section 8 Management Assessment Program (SEMAP), the
                 Authority rated itself as a high performer. Based upon the deficiencies discussed
                 in this finding, it should reassess its program performance and its scores adjusted
                 as necessary.

    Conclusion

                 As a result of the procedural and control weaknesses described above, the
                 Authority overpaid $55,667 and underpaid $10,915 in housing assistance and
                 utility allowances and disbursed $390,463 in housing assistance and utility
                 allowance payments without supporting documentation. If the Authority
                 implements adequate procedures and controls regarding its housing assistance and
                 utility allowances to ensure compliance with HUD’s regulations and its program
                 plan, we estimate that more than $1.4 million in overpayments of housing
                 assistance will be put to better use over the next year based on the error rate found
                 in our sample.

    Recommendations

                 We recommend that the Director of HUD’s Cleveland Office of Public Housing
                 require the Authority to

                 1A.   Reimburse its program $61,591 ($55,667 in housing assistance and utility
                       allowance payments and $5,924 in associated administrative fees) from
                       non-Federal funds for the overpayment of housing assistance and utility
                       allowances cited in this finding.
j
                 1B.   Pursue collection of the $23,011 from the seven households cited in this
                       finding for the overpaid housing assistance and utility allowances due to
                       unreported income.

                 1C.   Reimburse the appropriate households $10,915 from program funds for the
                       underpayment of housing assistance and utility allowances cited in this
                       finding.

                 1D.   Provide supporting documentation or reimburse its program $390,463 from
                       non-Federal funds for the unsupported payments related to the 35
                       households cited in this finding, of which $307,269 remains to be
                       supported or should be reimbursed from non-Federal funds.




                                                   9
1E.   Review its Section 8 Management Assessment Program (SEMAP) scores
      and adjust as necessary according to the deficiencies noted in this finding.

1F.   Implement adequate procedures and controls regarding its housing
      assistance and utility allowance payments to ensure that it complies with
      HUD’s regulations and its plan. By implementing adequate procedures and
      controls, the Authority should help ensure that $1,422,978 in overpayments
      of program funds is appropriately used for future payments over the next
      year.




                                10
Finding 2: The Authority Did Not Follow HUD’s, the State of Ohio’s,
and Its Requirements Concerning Conflicts of Interest
The Authority did not follow HUD’s and its requirements and the State of Ohio Revised Code
regarding conflict-of-interest provisions. It failed to ensure that its employees disclosed conflicts
of interest regarding the Authority’s Housing Choice Voucher program as required by Federal
requirements, the Authority’s employee manual, and the Ohio Revised Code. Employees failed
to identify themselves, relatives, business associates, and close friends who were potential
participants in the program as landlords or tenants. It also failed to ensure that a third-party
inspector performed inspections of Authority-owned units. As a result, more than $1.2 million in
program funds was paid to employees, relatives, business associates, or close friends of
employees who held a position in formulating policy and making decisions with respect to the
program. Additionally, the Authority paid more than $109,000 in program funds for Authority-
owned units for which it failed to ensure that a third-party inspector performed the inspections.


 The Authority Lacked
 Documentation Ensuring That
 Conflicts of Interest Were
 Properly Disclosed

               We reviewed 100 percent of the Authority’s employees that had a decision-
               making position for the program. We reviewed the employees’ possible
               relationships with employees, relatives, business associates, and close friends in
               LexisNexis Accurint. The housing assistance payments register was reviewed to
               determine the employee’s potential relatives, business associates, and close
               friends who received assistance through the program from January 1, 2009,
               through September 30, 2010. The employees were interviewed to ensure that the
               relationships were accurate. Our review was limited to the information
               maintained by Accurint, the housing assistance payments register, the Cuyahoga
               County auditor’s Web site for property ownership, and the employees
               interviewed.

               HUD’s regulations at 24 CFR 982.161 state that neither the public housing
               authority nor any of its contractors or subcontractors may enter into any contract
               or arrangement in connection with the tenant-based programs in which any of the
               following classes of persons has any interest, direct or indirect, during the tenure
               or for 1 year thereafter: any present or former member or officer of the public
               housing authority or any employee, contractor, subcontractor, or agent of the
               public housing authority, who formulates policy or who influences decisions with
               respect to the programs.

               The Authority’s inspections department was responsible for the oversight,
               scheduling, and conducting of housing quality standards inspections for all
               program-assisted units. The unit inspection determines whether a landlord’s
               property met the appropriate standards to allow contracting the unit for a tenant


                                                 11
receiving program assistance. The inspection department had 39 employees. We
identified 11 employees that had a total of 21 relatives, business associates, or
close friends or were, themselves, participating in the program. Of the 11
employees, two employees in the inspection department were landlords in the
program, and one employee had a spouse who was a landlord who participated in
the program. One of the inspectors was identified as a landlord of multiple
properties in the program. This inspector operated under a company name that
was different from her name. Additionally, we identified four inspectors who
performed inspections on the units of their relatives. The 11 tenants and 10
landlords that participated in the program received $698,197 in housing assistance
and utility allowance payments.

The applications and contracting department was responsible for receiving and
verifying background data, determining participants’ eligibility, processing
housing assistance payments contracts in an expedited manner, determining rent
and rent reasonableness, and communicating with the tenant and landlord to
ensure the accurate and timely completion of housing assistance payments
contracts. The applications and contracting department had 22 employees. We
identified 8 employees who had a total of 26 relatives, business associates, or
close friends participating in the program. The 17 tenants and 9 landlords
received $304,677 in housing assistance and utility allowance payments.

The client service department was responsible for determining the housing
assistance payments that the tenants and landlords would receive; determining
participant eligibility; and requesting, receiving, and verifying income and
background data. The client service department had 41 employees. We identified
12 employees who had a total of 19 relatives, business associates, or close friends
participating in the program. The 13 tenants and 6 landlords received $164,131 in
housing assistance and utility allowance payments.

The finance department was responsible for the abatements, housing assistance
payments, check runs, adjustments, rent increases and decreases, setup of new
landlords, preparation and distribution of miscellaneous income tax form 1099 for
landlords, and reconciling the disbursement of program funds. The program’s
finance department had seven employees. We identified one employee who had a
total of two relatives, business associates, or close friends participating in the
program. The two tenants received $24,397 in housing assistance and utility
allowance payments.

The waiting list was used to ensure that families were placed in the proper order
and properly selected for admission to the program. The accuracy of the waiting
list ensures that qualified applicants are available so that program funds are used
in a timely manner on qualified participants. We reviewed 45 employees who had
authorization to make changes to the waiting list from January 1, 2009, through
December 6, 2011. We identified five employees who had a total of eight
relatives, business associates, or close friends participating in the program. The
four tenants and four landlords received $34,237 in housing assistance and utility
allowance payments.


                                12
        The following table identifies the housing assistance and utility allowance
        payments made to relatives and associates of the employees of the Authority.

                       Summary of employee conflicts
                          Housing assistance paid to relatives or
                                associates of employees
                                                      Number of
                                                      relatives or
Department             Tenant       Landlord           associates            Total
Executive                $0             $0                  0                 $0
Board of
commissioners            0                0                  0                 0
Inspection            684,803          13,394               23              698,197
Applications and
contracting           279,874          24,803               26             304,677
Client services       154,510           9,621               19             164,131
Budget                    0               0                  0                 0
Finance                22,215           2,182                2              24,397
Administrative
affairs                   0               0                 0                  0
Contract
administration            0               0                 0                  0
Waiting list
authorization          30,311          3,926                 8              34,237
        Totals       $1,171,713       $53,926               76            $1,225,639

        We interviewed 77 employees who held a decision-making position at the
        Authority and who were identified in LexisNexis Accurint as having potential
        relatives, business associates, or close friends participating in the program. None
        of the 77 employees interviewed received training for disclosing a conflict-of-
        interest, and 45 (58 percent) stated that they did not disclose to the Authority any
        or all of the relationships they had with others in the program. Four of the forty-
        five employees held management, supervisory, or team lead positions. Thirty-one
        employees (40 percent) stated that they had not been given instructions for
        proceeding with their jobs upon disclosure of a conflict-of-interest relationship,
        three of which were employees who held management, supervisory, or team lead
        positions.

        The Authority’s employee manual requires employees to report in writing to the
        internal audit director whether they have a possible conflict of interest. On
        August 11, 2011, the previous internal control director stated that she did not have
        departmental conflict-of-interest disclosures in writing. She later provided two
        disclosure forms from the acting chief executive officer and the program director
        that were provided on July 25 and September 15, 2011, respectively. As of
        December 15, 2011, the Authority was revising its conflict-of-interest policy,
        which would include a formal written disclosure form for its employees.


                                         13
The Authority Inspected Its
Own Properties


            The Authority owned an interest in 90 units that received program assistance
            under a tenant-based or project-based contract. We reviewed 100 percent of the
            Authority-owned units to identify units that were not inspected by a third-party
            inspector. The Authority used another contracted third-party entity to perform the
            rent reasonableness determinations using a market study database.

            The Authority had an interest in 37 units through the Cleveland Housing
            Network, 16 units through Woody Woods, 32 units through Historic Newton
            Avenue Apartments, and 5 units through Valleyview Associates. On November
            6, 2007, the Authority received approval from HUD’s Cleveland field office to
            use an independent agency to perform housing quality standards inspections when
            program participants leased units in which the Authority had an ownership
            interest. Of the 90 units in which the Authority had an interest, 41 had
            inspections performed by the Authority’s inspectors and received program
            assistance totaling $109,396 from January 1, 2009, through September 30, 2010.
            This number did not include quality control inspections since the Authority was
            required to ensure that all inspections were conducted in accordance with HUD’s
            and its requirements.

            The following table identifies the vendor name, the number of units in which the
            Authority had an interest, the number of units inspected by Authority inspectors,
            and the housing assistance and utility allowance payments.

                            Number of units
                            The     Inspected
                         Authority      by            Housing        Utility
                           had an   Authority        assistance    allowance      Total
     Vendor name          interest  inspectors        payment       payment     assistance
   Cleveland Housing
        Network               37          31          $57,142       $19,154      $76,296
     Woody Woods              16           5           3,683         1,148        4,831
    Historic Newton
   Avenue Apartments          32           4          21.684         6,090        27,774
      Valleyview
       Associates              5           1           255            240          495
         Totals               90          41          82,764        $26,632      $109,396

            The program’s director was aware that the Authority conducted inspections on its
            units. At that time, the Authority’s third-party inspectors did not complete
            inspections in a timely manner, and violations were not being properly identified.
            As of March 2011, the Authority had entered into a new contract to perform its




                                            14
           third-party inspections. Even with the newly established contract, there were
           doubts that the inspections would be completed in a timely manner.

The Authority’s Procedures
and Controls Had Weaknesses

           The Authority lacked adequate procedures and controls to ensure that it followed
           HUD’s, the State of Ohio’s, and its requirements concerning the conflict-of-
           interest policy. The program director stated that she did not know the details of
           the Authority’s Administrative Order 11 in reference to conflicts of interest. She
           directed managers to handle possible conflicts of interest in the same way she
           would, which was to treat relatives who were landlords the same as any other
           landlord. In her opinion, this approach would resolve any appearance of special
           treatment. The program director also stated that the conflict-of-interest policy
           addressed only current employees and no indirect relationship, although
           Administrative Order 11, section B-XIII, part A, states that no employee must
           have any interest, directly or indirectly, in any contract for property, materials, or
           services to be acquired by the Authority. The Authority’s previous internal audit
           director stated that the program director attended a meeting at which conflict of
           interest was discussed. Therefore, she was aware of the disclosure requirement
           for a potential conflict of interest. Also, employees were required to sign a
           statement that they had received Administrative Order 11 and were responsible
           for knowing what was in the order. The Authority’s management staff members
           stated that they did not know about the order; therefore, it could not be expected
           that the Authority’s employees should be aware of the order.

           The acting chief executive officer and the program director failed to disclose the
           appearance of conflicts of interest with relatives until Administrative Order 11,
           HUD’s requirements, and the Ohio Revised Code were explained to them.
           Afterward, they provided written disclosures to the Authority’s internal audit
           director but did not direct other Authority employees to do so.

           With the high-profile issues the Authority had encountered in the past, ensuring
           that proper procedures and controls were followed is an important factor for
           maintaining community support for the Authority. Its former chief executive
           officer was indicted for allegedly accepting bribes to include golf outings, tickets
           to sporting events, and air conditioning for his home. The investigation was
           ongoing for 2 years before his arrest. As of January 19, 2012, the chief executive
           officer had been convicted of lying to Federal Bureau of Investigation agents and
           fired by the Authority’s board of commissioners at their regular January meeting.
           Two inspectors for the program were indicted for accepting money from landlords
           to provide passing housing quality standards inspections of program units, and
           one was sentenced to 4 years in prison. The Authority’s management ignored its
           responsibility to focus on ensuring that it followed Federal requirements and
           Ohio’s Revised Code, much less its requirements. As of January 12, 2012, the
           Authority had not enforced its conflict-of-interest policy, and its internal audit
           director had yet to receive additional written disclosures.


                                             15
Conclusion


             The Authority’s management staff failed to comply with HUD’s requirements, the
             Ohio Revised Code, and its administrative plan’s conflict-of-interest provisions.
             It did not obtain from its employees written confirmation of any potential
             conflicts of interest. Further, it did not use a third party to inspect properties in
             which it had an interest.

             As a result of these weaknesses, the Authority used program funds to make more
             than $1.2 million in housing assistance and utility allowance payments for the
             Authority’s employees and their relatives, business associates, and close friends
             that were not properly disclosed. Also, the Authority used $109,396 in program
             funds for 41 units in which it had an interest and did not have a third party
             perform the inspections.

             In accordance with 24 CFR 982.152(d), HUD may reduce or offset any
             administrative fee to public housing authorities, in the amount determined by
             HUD, if the authorities fail to perform their administrative responsibilities
             correctly or adequately under the program. The Authority received $5,563 in
             program administrative fees for the 41 units in which it had an interest and did not
             have a third party perform the housing quality inspections.

Recommendations

             We recommend that the Director of HUD’s Cleveland Office of Public Housing
             require the Authority to

             2A.    Reimburse its program $114,961 ($109,398 in program funds and $5,563
                    in associated administrative fees) from non-Federal funds for the 41 units
                    in which the Authority had an interest and did not require a third party to
                    perform inspections.

             2B.    Conduct an independent reexamination of the families that resided in the
                    Authority owned units.

             2C.    Implement adequate procedures and controls to ensure that the Authority
                    follows HUD’s, the State’s, and its requirements for program conflicts of
                    interest. The procedures and controls should contain a matrix of penalties
                    for violating the conflict of interest requirements.




                                              16
Finding 3: Controls Over the Authority’s Waiting List Were Not
Adequate
The Authority did not follow HUD’s requirements regarding its waiting list. It (1)
inappropriately added applicants to a closed waiting list and failed to open the waiting list,
allowing applicants for the Money Follows the Person Rebalancing Initiative and the Gateway
Advisory Board to be placed on its program’s closed waiting list against the Initiative’s and
program requirements; and (2) failed to appropriately comply with its voluntary compliance
agreement with HUD’s Office of Fair Housing and Equal Opportunity. Also, its internal controls
for access to the waiting list did not ensure that the waiting list was reasonably safeguarded
against unauthorized use. These deficiencies occurred because the Authority lacked adequate
procedures and controls to ensure that it appropriately followed HUD’s requirements and its
program plan. As a result, the Authority (1) allowed 310 households entry onto its closed
waiting list, (2) failed to ensure that it followed its voluntary compliance agreement with HUD,
(3) inappropriately funded more than $88,000 in housing assistance for participants in the
Initiative, (4) failed to ensure adequate controls to prevent unauthorized changes to the waiting
list, and (5) paid more than $2.8 million in housing assistance for the Authority’s supportive
services program.


 The Authority Inappropriately
 Added Applicants to a Closed
 Waiting List

              We reviewed the waiting list, which closed in October 2006; the agreement
              between HUD’s Fair Housing and Equal Opportunity Division and the Authority;
              and contracts with the Gateway Advisory Board. We requested and received
              explanations from HUD headquarters’ Office of Operations Management and
              Office of Fair Housing and Equal Opportunity. The waiting list was closed, but
              the Authority continued placing applicants onto it. This action violated 24 CFR
              982.206(a), which states that when an authority opens a waiting list, it must give
              public notice that families may apply for tenant-based assistance. The public
              notice must state where and when to apply. The authority must give the public
              notice by publication in a local newspaper of general circulation and also by
              minority media and other suitable means. The notice must comply with HUD’s
              fair housing requirements. All housing choice vouchers must be issued either to
              applicants on the waiting list or under special authority from HUD, which is unit
              specific.

              The Authority had violated its waiting list 295 times since the closing of the
              waiting list in 2006 for the Gateway Advisory Board, a special program initiated
              by the Authority. The Board was approved and supported by HUD and was
              available to assist up to 1,308 housing choice vouchers. The Authority had more
              than 1,100 vouchers assisted through this program. The program director stated
              that the Authority and HUD worked closely on the development and initiation of
              this program and that she was unaware of not following Federal requirements


                                               17
           since HUD approved the program. HUD’s Cleveland field office was not aware
           that the Authority was adding applicants to a closed waiting list. HUD
           headquarters stated that since the Authority was transparent concerning the
           special program, a monetary value should not be placed on the violation of the
           Federal requirements. The 295 persons housed from October 2006 through
           September 2011 by the Authority through the program received more than $2.8
           million in Federal funds. As of January 10, 2012, the Authority was continuing to
           add applicants to its closed waiting list.

The Authority’s Housing
Choice Voucher Program
Failed To Follow the Voluntary
Compliance Agreement

           The Authority entered into an agreement with the Office of Fair Housing and
           Equal Opportunity at HUD headquarters in July 2008. The agreement was
           entered into after the Office of Fair Housing and Equal Opportunity conducted a
           review of the Authority’s compliance with the Rehabilitation Act of 1973, Section
           504, and Title II of the Americans with Disabilities Act of 1990. Under the
           agreement, the Authority’s housing choice voucher department agreed to
           participate in the Initiative and effectively house nonelderly persons under the 5-
           year mainstream voucher program. The Authority was required to report to the
           HUD Columbus field office’s Fair Housing and Equal Opportunity Division on its
           progress toward compliance with the agreement.

           The Initiative required the Authority to institute a special program to house
           disabled persons leaving nursing homes and living in the local area. It was agreed
           to by HUD and the Authority through the agreement. The Initiative required
           housing choice vouchers to be issued for rental assistance for qualifying
           individuals. The qualified individuals must be added to the waiting list. As
           vouchers become available, selected individuals receive vouchers. To add
           applicants to the waiting list, the Authority was required to have the waiting list
           opened for this special program. The Authority failed to appropriately open the
           waiting list for the program. It followed the same process as its special program,
           the Gateway Advisory Board. The Initiative was a special program that was a
           requirement of the Authority’s voluntary compliance agreement with HUD.

           The Authority’s Housing Choice Voucher program director stated that she was
           unaware of the requirement to advertise that the waiting list would remain open
           for its special programs. She stated that the agreement’s conditions were not
           followed because the Authority did not receive a grant for the Initiative. The
           Authority housed 17 persons with housing choice vouchers between July 2008
           and September 2011 for the Initiative, 15 of whom were added to the closed
           waiting list. The 15 applicants were inappropriately placed into the program, and
           more than $88,000 in program funds was inappropriately paid for housing
           assistance.



                                           18
            The agreement required the Authority to report quarterly and semiannually. The
            Authority failed to report on section F, paragraph 9, Supportive Services Referral.
            This section required the Authority to continue issuing 5-year mainstream
            vouchers to house nonelderly disabled families. The Authority was unaware of
            this section since its voluntary compliance agreement compliance officer did not
            fully understand the agreement and HUD’s Fair Housing Equal Opportunity
            Division report recipient also did not fully understand this section of the
            agreement.

The Authority Was Informed
Before the Start of Our Audit


            We informed the Authority during the survey stage of our audit in December
            2010 that it had inappropriately placed applicants onto a closed waiting list. The
            Authority changed its administrative plan to state that the waiting list would
            remain open for families referred in accordance with the supportive service
            referral process. This was not a public notice as required in 24 CFR 982.206(a).
            The Authority failed to advertise the opening of the waiting list for these special
            programs. HUD’s Office of Housing Choice Voucher Management and
            Operations stated that the Authority should be required to revise its administrative
            plan to comply with regulations and advertise the opening of the waiting list for
            the special populations. HUD also stated that the Authority worked closely with
            HUD in developing the Gateway Advisory Board and was transparent in what it
            did. Closing the waiting list for this program was not an intentional violation of
            HUD’s regulations. The Authority did not provide a voucher to anyone who was
            not eligible for housing assistance; therefore, HUD did not view this as a serious
            violation and would not recommend attaching a dollar value to such an error.
            HUD’s regulations at 24 CFR 982.204(a) state that participants must be selected
            from the waiting list. Therefore, the applicants who were inappropriately placed
            onto the closed waiting list were not eligible for housing assistance.


The Authority’s Controls Over
the Waiting List Were Weak

            The Authority failed to ensure that internal controls were appropriately instituted
            for its waiting list. The waiting list could not be tracked for unauthorized
            changes. We determined that 46 public housing and housing choice voucher
            employees had edit access to the waiting lists and had the ability to change the
            sequence and application dates for applicants on the waiting lists. Changing these
            dates would allow an applicant to move forward or backward on the waiting list.
            From our review of the waiting list, we identified three applicants who were
            removed from the housing choice voucher waiting list by public housing officials
            and then placed back onto the waiting list by the housing choice voucher
            department when it discovered what had happened, more than a year later. When
            discussing this matter with the Authority, an employee stated that this sort of
            thing happened regularly.


                                             19
            The Authority maintained its Housing Choice Voucher and public housing
            programs’ waiting lists in its Elite software module. The Authority’s information
            technology director stated that he did not have the ability to identify whether field
            changes were made without severely degrading the Authority’s computer
            services. Therefore, the Authority could not identify whether the sequence
            number or application dates had been changed and who made the change. When
            these issues were discussed with the information technology director, he removed
            all employee access to change the sequence and application dates. The Authority
            had instituted a change whereby only three managers in both the housing choice
            voucher and the public housing departments would have the ability to change the
            sequence and application dates in the waiting list module. Also, the Authority
            was working with its information technology software contractor to determine
            whether it was feasible to track changes, identifying field changes without severe
            degradation of the computer services. Therefore, the Authority was working to
            ensure that the internal controls for the waiting list were greatly improved.

The Authority’s Management
Did Not Protect HUD’s Interest


            The weaknesses regarding the waiting list and the agreement occurred because the
            Authority lacked adequate procedures and controls to ensure that it appropriately
            followed HUD’s requirements and its program plan. The Authority was unaware
            of Federal requirements and failed to request a further understanding of the
            agreement.

            In August 2009, the Authority asked to bypass HUD’s requirements for its
            program project-based vouchers. HUD’s regulations at 24 CFR 982.206(a)(2)
            state that when a public housing authority opens its waiting list, it must give the
            public notice by publication in a local newspaper of general circulation and also
            by minority media and other suitable means. The notice must comply with
            HUD’s fair housing requirements. The Authority’s request was signed by the
            former chief executive officer, and a copy was sent to the program director. In
            August 2009, HUD’s Deputy Assistant Secretary for Public Housing and Voucher
            Programs replied that full access to this notification of a waiting list opening
            would not be available to everyone. Therefore, HUD would not waive its
            requirement for the waiting list. The Authority’s program director was aware of
            HUD’s requirements concerning the waiting list opening and closing but failed to
            ensure that they were followed. The director stated that the vouchers were for
            project-based, not tenant-based, voucher assistance so the requirements were
            different. The Authority was trying not to advertise the waiting list since it
            expected thousands of respondents who would not qualify for the special
            programs.

            The weakness regarding the internal controls for the waiting list occurred because
            the Authority failed to implement adequate procedures and controls concerning
            employee access to its waiting list. Also, the Authority was unaware of the


                                             20
             impact that unauthorized changes to the waiting list would create. When we
             discussed this issue with the Authority, it began to address improvements in its
             procedures and controls for safeguarding applicants’ positions on the waiting list.

Conclusion


             The weaknesses cited above resulted in the Authority’s admitting 310 households
             onto its waiting list since the waiting list closed in 2006 and 3 applicants to be
             erroneously placed at the end of the waiting list for more than a year. Each
             waiting list violation could produce discrimination and fair housing violations as
             well as the repayment of housing assistance for the assisted voucher. The
             Authority failed to abide by the Initiative requirements as agreed upon in its
             voluntary compliance agreement, inappropriately funded $88,109 in housing
             assistance for participants in the Initiative by admitting 15 households onto its
             closed waiting list, and failed to appropriately report to HUD its 5-year
             mainstream compliance. It also failed to ensure adequate controls to prevent
             unauthorized changes in the waiting list. Additionally, the Authority had paid
             more than $2.8 million in housing assistance for its supportive services program,
             the Gateway Advisory Board, since February 2007 for the 295 waiting list
             violations.

             In accordance with 24 CFR 982.152(d), HUD may reduce or offset any
             administrative fee to public housing authorities, in the amount determined by
             HUD, if the authorities fail to perform their administrative responsibilities
             correctly or adequately under the program. The Authority received $9,376 in
             program administrative fees for the 15 applicants added to the closed waiting list
             for the initiative.

Recommendation


             We recommend that the Director of HUD’s Cleveland Office of Public Housing
             require the Authority to

             3A. Reimburse its program $97,485 ($88,109 in housing assistance payments
                 and $9,376 in administrative fees) from non-Federal funds for the housing
                 assistance and administrative fees paid for the households cited in this
                 finding.

             3B. Implement adequate procedures and controls to ensure that it appropriately
                 follows Federal and its requirements for its special programs.

             3C. Advertise opening its waiting list for its special programs in accordance with
                 Federal requirements.

             3D. Implement adequate procedures and controls to ensure that the 5-year
                 mainstream vouchers comply with the voluntary compliance agreement.


                                              21
3E. Implement adequate procedures and controls to ensure that the integrity of
    the waiting list is maintained, preventing unauthorized changes.

We also recommend that the Director of HUD’s Columbus Office of Fair Housing
and Equal Opportunity

3F. Review the Authority’s household selections to ensure that the Authority
    complies with HUD’s requirements. If the Authority fails to comply with
    HUD’s requirements, the Director should take appropriate action against the
    Authority and its employee(s).

3G. Conduct a compliance and technical assistance review of the voluntary
    compliance agreement to ensure that HUD and the Authority understand the
    expectations of the agreement and appropriately comply with it.

3H. Require the Authority to submit a status update of its Money Follows the
    Person Rebalancing Initiative and 5-year mainstream housing choice
    vouchers.




                               22
                        SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

      Applicable laws, HUD’s program requirements at 24 CFR Parts 5 and 982, public and
       Indian housing notices, and HUD’s Housing Choice Voucher Guidebook 7420.10.

      The Authority’s program administrative plan from 2009 through 2011; Administrative
       Order 11; accounting records; annual audited financial statements for 2008, 2009, and 2010;
       program household files; computerized databases; policies and procedures; board meeting
       minutes for 2007, 2008, and 2009; organizational chart; program annual contributions
       contract; and voluntary compliance agreement with HUD.

      HUD’s files for the Authority.

We also interviewed the Authority’s employees and HUD staff.

Finding 1

We statistically selected 80 of the Authority’s program household files from the 16,100
households that received housing assistance payments from January 1, 2009, through September
30, 2010, using data-mining software. Our analysis was performed to ensure that the Authority
had improved its household file maintenance and housing assistance payments calculations. The
80 household files were selected to determine whether the Authority appropriately calculated the
households’ housing assistance and utility allowance payments and maintained documentation to
support households’ program eligibility.

We extended our audit period to ensure that we covered the full audit timeframe as well as
reporting the most current errors possible. To include the audit period, we used certifications
from 2008. If the certification was performed after January 2009, we reviewed the latest 2008
certification. Also, we extended the period of file reviews from September 2010 to August 2011.
For statistical purposes, the projections for our sample used only the timeframe from which the
sample was taken, January 1, 2009, through September 30, 2010. We documented and reported
all errors we found up to August 2011.

Our sampling method was variable with a projected one-sided 95 percent confidence interval.
The sample results support an estimate that the Authority overpaid nearly $2.9 million and
underpaid nearly $782,000 to its program participants during our audit period.

Our sampling results determined that 43 households had miscalculations that were material
enough to result in a miscalculation of housing assistance payments. The miscalculations
resulted in overpayments for 30 households and underpayments for 19 households. The average
overpayment was $434.76 per client, and the average underpayment was $90.99 per client within
the sample period. We reduced the overpayments by the amount of the underpayments for an
average of $343.77 per tenant in program funds which could have been put to better use. For the


                                               23
Authority’s 16,100 households, this projects to $1,422,978.38 in funds to be put to better use as
noted in the adjacent tables.

                Summary for difference values (population = 16,100; sample size = 80)
                                                          Standard
                                                           error of    90 percent confidence level
    Variable            Label        No.       Mean         mean                of the mean
 Total difference FTBPTBU            80 343.787500 155.249929            85.393957      602.181043
 Overpayments      Overpayments      80 434.775000 151.404559           182.781580       686.768420
 Underpayments Underpayments         80     90.987500      25.789692     48.063875       133.911125
 Number            16,100


                                 Projected Cost Impact of Findings

                                                                 Measure
                                                                                   Total Projected
                                         Overpayments       Underpayments          Funds
               Average per Household              $434.76                $90.99             $343.77
                      Standard Error              $151.40                $25.79             $155.25
            - (1.645 X Standard Error)           -$249.05                -$42.42           -$255.39
      Projected dollars per household             $185.71                $48.57              $88.38
        Total Universe of Households               16,100                16,100              16,100
               Total Projected Dollars      $2,989,882.70            $781,903.75      $1,422,978.38


Unless the Authority implements adequate procedures and controls regarding the disbursement
of housing assistance and utility allowance payments to ensure compliance with HUD’s
regulations and its program administrative plan, we estimate that more than $1.4 million in
payments will be misspent over the next year. This estimate is presented solely to demonstrate
the annual amount of program funds that could be put to better use for appropriate payments if
the Authority implements our recommendation. While these benefits could recur indefinitely,
we were conservative in our approach and only included the initial year in our estimate.

Finding 2

We reviewed 100 percent of the Authority’s employees that held a position in formulating policy
and making decisions with respect to the program that could present a conflict of interest. We
reviewed the employees’ possible relationships with relatives, business associates, and close
friends in LexisNexis Accurint. The housing assistance payments register was reviewed to
determine the employees and their potential relatives, business associates, and close friends who
received assistance on the program from January 1, 2009, through September 30, 2010. The
employees were interviewed to ensure that the relationships were accurate. Our review was
limited to the information maintained by Accurint, the housing assistance payments register,
Cuyahoga County’s auditor’s Web site for property ownership, and the employees interviewed.

We also reviewed 100 percent of the Authority-owned units to identify units that were not
inspected by a third-party inspector. We reviewed the addresses of the Authority-owned units
and reviewed the Authority’s inspection list from January 1, 2009, through September 30, 2010,



                                                    24
to determine the addresses of the Authority-owned units that were not inspected by a third-party
inspector.

Finding 3

We performed a 100 percent review of the waiting list regarding the Initiative and the Gateway
Advisory Board from October 2006 through September 2011. The waiting list was reviewed to
identify applicants who were added to the waiting list after it was closed.

We performed our onsite audit work between August and December 2011 at the Authority’s
office located at 8120 Kinsman Road, Cleveland, OH. The audit covered the period January 1,
2009, through September 30, 2010, but was expanded when necessary to include other periods.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               25
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our objective:

                     Effectiveness and efficiency of operations – Policies and procedures that the
                      audited entity has implemented to provide reasonable assurance that a
                      program meets its objectives, while considering cost effectiveness and
                      efficiency.

                     Reliability of financial reporting – Policies and procedures that management
                      has implemented to provide reasonable assurance regarding the reliability of
                      financial reporting and the preparation of financial statements in accordance
                      with generally accepted accounting principles.

                     Compliance with applicable laws and regulations – Policies and procedures
                      that management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 26
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

                   The Authority lacked adequate procedures and controls to ensure
                    compliance with HUD’s requirements and its program administrative plan
                    regarding households’ income analysis and subsidy determinations (see
                    finding 1).

                   The Authority lacked adequate procedures and controls to ensure
                    compliance with HUD’s and its requirements and the Ohio Revised Code
                    regarding conflicts of interest (see finding 2).

                   The Authority lacked adequate procedures and controls regarding the
                    administration of its waiting list (see finding 3).




                                              27
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

           Recommendation        Ineligible 1/    Unsupported 2/   Funds to be put
               number                                               to better use 3/
                  1A                 $61,591
                  1C                                                        10,915
                  1D                                   $390,463
                  1E                                                   $1,422,978
                  2A                $114,961
                  3A                  97,485
                 Totals             $274,037           $390,463        $1.433,893

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the Authority implements our
     recommendation, it will cease to incur program costs for the overpayment and
     underpayment of housing assistance and, instead, will expend those funds in accordance
     with HUD’s requirements and/or the Authority’s program administrative plan. Once the
     Authority successfully improves its controls, this will be a recurring benefit. Our
     estimate reflects only the initial year of this benefit.




                                             28
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         29
Ref to OIG Evaluation   Auditee Comments




Comment 3


Comment 4




Comment 5




                         30
Ref to OIG Evaluation   Auditee Comments




Comment 6




Comment 7




                         31
Ref to OIG Evaluation   Auditee Comments




Comment 8




Comment 9




Comment 10




                         32
Ref to OIG Evaluation   Auditee Comments




Comment 11




Comment 12




Comment 13




                         33
Ref to OIG Evaluation   Auditee Comments




                         34
Ref to OIG Evaluation   Auditee Comments




Comment 12

Comment 14




Comment 15




Comment 16




                         35
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 17




Comment 18




                         36
Ref to OIG Evaluation   Auditee Comments




Comment 19




Comment 20




Comment 21




                         37
Ref to OIG Evaluation   Auditee Comments




Comment 22




Comment 23




Comment 24




                         38
Ref to OIG Evaluation   Auditee Comments




Comment 25




Comment 26




Comment 27




                         39
Ref to OIG Evaluation   Auditee Comments




Comment 26




Comment 27




                         40
Ref to OIG Evaluation   Auditee Comments




Comment 28




Comment 29




Comment 30




                         41
Ref to OIG Evaluation   Auditee Comments




Comment 31




Comment 32




Comment 33




                         42
Ref to OIG Evaluation   Auditee Comments




Comment 34


Comment 35




Comment 36




                         43
Ref to OIG Evaluation   Auditee Comments




Comment 37




Comment 38




Comment 39




                         44
                         OIG Evaluation of Auditee Comments

Comment 1   The Section Eight Management Assessment Program (SEMAP) is a self
            evaluation by the Authority of its Housing Choice Voucher Section 8 program.
            HUD’s Quality Control For Rental Assistance Subsidies Determinations; Final
            Report for 2009 was a nationwide review of the program’s certifications. One
            certification was reviewed for each of the Authority’s 32 files selected. We
            reviewed 252 certifications for the 80 files in our sample. The certifications were
            completed by the Authority from 2008 to 2011. The larger sample size allowed
            for a more accurate error rate over time.

Comment 2   The actual dollar findings for Finding 1 in our report were $55,667 in
            overpayments. There were seven files that contained documentation to support
            that $23,011 in overpayments was made due to unreported income. The
            unreported income was identified from the documentation contained in the files.
            The Authority is responsible for identifying when a household fails to report their
            income. Therefore the Authority is responsible for the overpayments cited in
            recommendation 1A. We revised Recommendation 1B to state that the Authority
            pursues collection of the overpaid funds from the households. The Authority
            could then repay its non-Federal fund account. We did not double count any
            funds since Recommendation 1B is not included in Appendix A, the Schedule of
            Questioned Costs and Funds To Be Put To Better Use.

Comment 3   We reviewed the documentation and calculations submitted by the Authority for
            the over and under payments in the report. We determined that the Authority’s
            documentation did not support the changes it states. We determined the changes
            were as follows:

            Tenant file review errors were changed from 48 to 47 files, overpaid housing
            assistance and utility allowance payments totaled: $55,667, and underpaid
            housing assistance and utility allowance payments totaled: $10,915.

            Of the above mentioned payments, the utility allowance payments for the
            households were overpaid $12,129 and underpaid $1,511. These payments were
            stated in our supporting documentation for the Authority’s assistance in reviewing
            the documentation submitted to them by us. These amounts are contained in the
            total amounts listed.

Comment 4   The Authority determined our statistical sample evaluation for only the sample we
            reviewed. It did not project the sample across the universe of households.
            Therefore, the errors appear small. However, projecting the audit results across
            the program universe shows that the Authority had an error rate of 58.75 percent,
            or we are 95 percent confident that the Authority would have 9,459 households
            out of a universe of 16,100 with errors in calculating the housing assistance and
            utility allowance payments received by its households. Over the next year, if the
            Authority implements our recommendation, it will cease to incur more than $1.4


                                             45
              million in program costs for the overpayment and underpayment of housing
              assistance and, instead, will expend those funds in accordance with HUD’s
              requirements and/or the Authority’s program administrative plan.

Comment 5     The 47 files contained the following errors:
                  38 had annual income calculation errors by the Authority for 1 or more
                     certifications,
                  21 had incorrect income verifications for 1 or more certifications,
                  18 had incorrect income adjustments for 1 or more certifications,
                  7 had unreported income by the households for 1 or more certifications,
                  4 had incorrect payment standards for 1 or more certifications,
                  2 had incorrect voucher size for 1 or more certifications, and
                  1 failed to identify a tenant’s disabilities.

Comment 6     The auditor requested and received the utility allowance schedule from the
              Authority that was used for all calculations. Additionally, we verified our process
              of reviewing the household files with the Authority so we would be using its
              process within HUD’s requirements.

              The Authority failed to appropriately interpret HUD’s requirements for income
              verification. HUD’s Housing Choice Voucher Program Guidebook, section 5.6
              states that accurate determination of income eligibility, allowances, and family
              rent can occur only with full verification of all factors related to income and
              family circumstances. The Authority does not have an established procedure in
              its administrative plan for determining income but does have an established
              verification of income procedures in its administrative plan.

Comment 7     We used the method prescribed to us by an applications department supervisor.
              We determined that the Authority did not consistently use this method to calculate
              child support income. It used the last three months of a year to annualize the
              income in instances where the child services’ verification was available.

Comment 8     We agree with the Authority and made appropriate corrections to the
              certifications.

Comment 9     We agree that Chapter 5 of HUD’s Housing Choice Voucher Program Guidebook
              states that authorities may choose among several methods to determine the
              anticipated annual income. The following are two acceptable methods of
              calculating annual income: calculating projected annual income by annualizing
              current income (and subsequently conducting an interim reexamination if income
              changes); or using information available to average anticipated income from all
              known sources when the sources are expected to change during the year. The
              Guidebook does not state to use the higher income for a certification.

Comment 10 We disagree with the Authority concerning the utility allowance errors. We did
           adjust utility allowances for which the Authority provided sufficient documentary


                                              46
              evidence to support changes to our utility allowance determinations. The
              Authority also submitted attachments that had a conflicting utility allowance
              schedule from the schedule originally provided by the Authority for 2008. HUD
              will need to determine why the conflicting schedules existed and make a
              determination as to the correct utility allowance schedule to use.

Comment 11 We agree with the Authority.

Comment 12 We disagree with the Authority. From our review of the supporting
           documentation provided by the Authority, we determined that of the 80 household
           files statistically selected for review, 28 files (34.6 percent) were missing or
           contained incomplete or late documents as follows:
                        24 had annual certifications that were late for one or more
                         certifications;
                       14 were missing evidence of criminal background checks;
                       13 did not have the lease and housing assistance payments contract
                         executed within 60 days of each other;
                       11 were missing the lease and a housing assistance payments contract;
                       8 were missing the form HUD-52517, Request for Tenancy Approval;
                       7 were missing a rent reasonableness determination for the leased unit
                         and the original application;
                       6 were missing the lead-based paint form;
                       2 were missing authorization of release of information; and
                       1 was missing birth certificates.

Comment 13 We reviewed the files and found one file was annotated that the tenant did not
           show for their annual certification, we did not consider this late annual as the
           Authority’s error.

Comment 14 We agree that the lease term begins when the lease states the beginning of the
           term. We agreed with 3 household files and made the adjustments. The other
           supporting documentation did not support that the lease and the housing
           assistance payments contract were executed within 60 days of the beginning of
           the lease term.

Comment 15 As discussed at the exit conference, we agree that documents may be missing due
           to the files being taken from the Authority by other parties. The Authority should
           ensure that it updates its records with each certification. This will ensure that the
           files contain the appropriate documentation.

Comment 16 We commend the Authority for taking steps to ensure that identified weaknesses
           are corrected. Also, the Authority would benefit from ensuring that reviews of
           previous certification and documentation supports the current documentation
           provided by the participants. This would decrease the number of errors and
           unreported income incidents.



                                               47
Comment 17 The overpayments ($55,667) represent an error rate of nearly 6.5% of the total
           housing assistance and utility allowance payments ($861,571) reviewed. With the
           growing scarcity of available program funding, as evidenced by Congress’
           mandated recapture of program net restricted assets for fiscal year 2012, no
           misuse of Federal funds should be considered reasonable. Additionally, as
           detailed in the Scope and Methodology section, we estimate that nearly $3 million
           in overpayments of housing assistance will be made over the next year based on
           the error rate found in our sample.

Comment 18 The Authority should seek reimbursement from the households, or it may choose
           to make repayment from non-Federal funds.

Comment 19 We commend the Authority for its pursuit of unreported income by participants
           on the program.

Comment 20 We received sufficient documentation to adjust one household file in the report.
           We agree that the work study program is considered financial aid and adjusted
           unreported income household files identified from eight to seven households. Our
           concern was that the Authority’s files contained the correct income information
           for the seven households but it was not included in the calculations for housing
           assistance and utility allowance payments.

Comment 21 Of the $11,604 we identified, we received sufficient evidence to support a
           reduction to $10,915.

Comment 22 From our review of the supporting documentation submitted by the Authority, we
           determined that it provided sufficient evidence to reduce the amount of
           unsupported funds from $390,463 to $307,269. It also reduced the total files with
           incomplete documentation from 35 to 28 files. The Authority will reimburse
           funds only for households that sufficient documentation is not provided to support
           the households’ eligibility for assistance.

Comment 23 The finding has not been significantly reduced. Therefore, our stance is that HUD
           needs to review the Authority’s Section Eight Assessment Program report and
           adjust it as necessary.

Comment 24 The projected amount was reduced to reflect the one file that we incorrectly cited
           during our audit. The significance of the finding is intact.

Comment 25 We removed the recommendation.

Comment 26 We commend the Authority for its action on this serious issue. HUD will need to
           ensure that sufficient procedures and controls have been implemented.

Comment 27 The Authority did request HUD’s approval to contract with a third party
           inspector. However, when it encountered issues with the contractor, the Authority


                                             48
              inspected its own units. The Authority should have contacted HUD and informed
              HUD of the issue with its third party inspector. Also, the inspection reports
              provided showed that many of the units failed the first inspection conducted by
              the third party entity. The inspection reports provided by the Authority did not
              always show that corrective action was completed by the landlord.

Comment 28 We disagree with the Authority. This process ensures that the Authority has
           conducted itself appropriately in regards to administering its own units.

Comment 29 The Authority’s proposed actions should improve its program operations, if fully
           implemented.

Comment 30 We disagree with the Authority. The Authority did not advertise the opening of
           the waiting list for its special programs. Since the waiting was closed in 2006, the
           Authority has been adding applicants to a closed waiting list in violation of
           HUD’s requirement.

Comment 31 The Authority’s actions certainly appear to be in violation of its voluntary
           compliance agreement with HUD. HUD’s Fair Housing and Equal Opportunity
           office stated that it would proceed with a compliance and technical assistance
           review of the Authority to ensure that both the Authority and HUD are in
           agreement with what is expected from the Authority and HUD concerning the
           voluntary compliance agreement.

Comment 32 The Authority’s failure to advertise the opening of its waiting list may preclude
           persons that are not aware of Gateway and the Money Follows the Person from
           being added to its waiting list. It needs to follow Federal requirements to ensure
           equal housing opportunity for all persons within Cuyahoga County.

Comment 33 We do not agree that the Authority has effectively improved its controls over its
           waiting list. The Authority needs to ensure it complies with all program
           requirements for its waiting list.

Comment 34 The Authority was aware of HUD’s requirements regarding advertising the
           opening of the waiting list prior to adding applicants to the waiting list. We
           disagree that the waiver dealt with creating a single waiting list for project based
           vouchers. The waiver was submitted to HUD on July 15, 2009. The subject of
           the wavier requested by the Authority stated that it was requesting a waiver of 24
           CFR 982.206(a)(2) – Waiting List. The Authority also stated in the waiver
           request that the regulation states that the public housing authority must give the
           public notice by publication in a local newspaper of general circulation, and also
           by minority media and other suitable means. The notice must comply with HUD
           fair housing requirements. The Authority was aware of HUD requirements
           regarding advertising the opening of the waiting list prior to adding applicants to
           the waiting list. We do agree that the Authority can have a separate waiting list for
           its project-based vouchers.


                                              49
Comment 35 The issue that three households were erroneously moved to the end of the waiting
           list combined with the rest of the finding shows that the Authority failed to protect
           HUD’s interest. The three households stated in the report were discovered by the
           Applications and Contracting department over a year after the applicants were
           moved to the end of the waiting list. These households were moved by the public
           housing department without the housing choice voucher department’s knowledge.
           A manager at the housing authority stated to us that this occurs regularly.

Comment 36 The Authority should have been aware of HUD requirements. The Authority
           operates a program which receives over $90 million dollars. The Authority
           received a denial to bypass a waiting list from HUD headquarters. Per HUD
           requirements to be eligible for a voucher, the Authority is required to select
           applicants on the waiting list. Also, the waiting list needs to be opened to add
           applicants or referrals to the waiting list. Therefore, HUD and the Authority
           lacked assurance that program applicants were selected fairly and consistently and
           in accordance with HUD regulations.

Comment 37 HUD Headquarters stated that the agreement requires the Authority to continue
           using the 5-year mainstream vouchers for non-elderly disabled persons and
           families. Since this was unclear HUD’s Fair Housing and Equal Opportunity
           office stated that it would proceed with a compliance and technical assistance
           review of the Authority to ensure that both the Authority and HUD are in
           agreement with what is expected from them in regards to the voluntary
           compliance agreement.

Comment 38 We commend the Authority. HUD will have to confirm the implementation of
           adequate procedures and controls.

Comment 39 We removed the recommendation.




                                              50
Appendix C

      FEDERAL REQUIREMENTS AND THE AUTHORITY’S
                ADMINISTRATIVE PLAN

Finding 1

HUD’s regulations at 24 CFR 982.54(a) state that the public housing authority must administer
the program in accordance with its administrative plan.

HUD’s regulations at 24 CFR 982.153 state that the public housing authority must comply with
the consolidated annual contributions contract, the application, HUD regulations and other
requirements, and its program administrative plan.

HUD’s regulations at 24 CFR 982.158(a) state that the public housing authority must maintain
complete and accurate accounts and other records for the program in accordance with HUD
requirements in a manner that permits a speedy and effective audit. The authority must prepare a
unit inspection report. During the term of each assisted lease and for at least 3 years thereafter,
the authority must keep (1) a copy of the executed lease, (2) the housing assistance payments
contract, and (3) the application from the family. The authority must keep the following records
for at least 3 years: records that provide income, racial, ethnic, gender, and disability status data
on program applicants and participants; unit inspection reports; lead-based paint records as
required by part 35, subpart B, of this title; records to document the basis for authority
determination that the rent to the owner is a reasonable rent (initially and during the term of a
contract); and other records specified by HUD.

HUD’s regulations at 24 CFR 5.216(a) state that each assistance applicant must submit the
complete and accurate Social Security number assigned to the applicant and to each member of
the household who is at least 6 years of age. The documentation necessary to verify the Social
Security number of an individual is a valid Social Security number issued by the Social Security
Administration or such evidence of the Social Security number as HUD and, when applicable,
the authority may prescribe in administrative instructions.

HUD’s regulations at 24 CFR 5.240(c) state that public housing authorities must verify the
accuracy of the income information received from program households and change the amount
of the total household payment, household rent, or program housing assistance payment or
terminate assistance, as appropriate, based on such information.

HUD’s regulations at 24 CFR 982.305(a) state that the public housing authority may not give
approval for the family of the assisted tenancy or approve a housing assistance contract until the
authority has determined that the following meet program requirements: the unit is eligible, the
unit has been inspected by the authority and meets HUD’s housing quality standards, and the rent
to the owner is reasonable.



                                                 51
HUD’s regulations at 24 CFR 982.305(b)(1) state that before the beginning of the initial term of
the lease for a unit, the landlord and the tenant must have executed the lease (including the HUD-
prescribed tenancy addendum) and the lead-based paint disclosure as required in section 35.92(b)
of this title.

HUD’s regulations at 24 CFR 982.305(c) state that when a housing assistance payments contract
is executed, the public housing authority must use its best efforts to execute the contract before
the beginning of the lease term. The contract must be executed no later than 60 calendar days
from the beginning of the lease term. The authority may not make any housing assistance
payments to the owner until the contract has been executed. Any housing assistance payments
contract executed after the 60-day period is void, and the authority may not make any housing
assistance payments to the owner.

HUD’s regulations at 24 CFR 982.451(a)(2) state that the term of the housing assistance
payments contract is the same as the term of the lease.

HUD’s regulations at 24 CFR 982.505(b)(4) state that if the payment standard amount is
increased during the term of the contract, the increased payment standard must be used to
calculate the monthly housing assistance payment for the family beginning at the effective date
of the family’s first regular reexamination on or after the effective date of the increase in the
payment standard amount.

HUD’s regulations at 24 CFR 5.508(a) and (b) require each family member, regardless of age, to
submit the following evidence to the responsible entity:

(1) For U.S. citizens or U.S. nationals, the evidence consists of a signed declaration of U.S.
citizenship or U.S. nationality. The responsible entity may request verification of the declaration
by requiring presentation of a U.S. passport or other appropriate documentation as specified in
HUD guidance.

(2) For noncitizens who are 62 years of age or older or who will be 62 years of age or older and
were receiving assistance under a Section 214-covered program on September 30, 1996, or
applied for assistance on or after that date, the evidence consists of a signed declaration of
eligible immigration status and proof of age document.

(3) For all other noncitizens, the evidence consists of a signed declaration of eligible immigration
status, one of the documents referred to in section 5.510, and a signed verification consent form.

“(c) Declaration: (1) For each family member who contends that he or she is a U.S. citizen or a
noncitizen with eligible immigration status, the family must submit to the responsible entity a
written declaration, signed under penalty of perjury, by which the family member declares
whether he or she is a U.S. citizen or a noncitizen with eligible immigration status. For each
adult, the declaration must be signed by the adult. For each child, the declaration must be signed
by an adult residing in the assisted dwelling unit who is responsible for the child.
HUD’s regulations at 24 CFR 5.508(c) state that the responsible entity must verify the accuracy
of the income information received from the family and change the amount of the total tenant


                                                52
payment, tenant rent, or Section 8 housing assistance payment or terminate assistance, as
appropriate, based on such information.”

HUD’s regulations at 24 CFR 982.516(a)(1) require the public housing authority to conduct a
reexamination of family income and composition at least annually. The authority must obtain
and document in the client file third-party verification of the following factors or must document
in the client file why third-party verification was not available: (1) reported family annual
income, (2) the value of assets, (3) expenses related to deductions from annual income, and (4)
other factors that affect the determination of adjusted income. At any time, the authority may
conduct an interim reexamination of family income and composition. Interim reexaminations
must be conducted in accordance with policies in the authority’s administrative plan.

Finding 2

HUD’s regulations at 24 CFR 982.161(a) state that neither the public housing authority nor any
of its contractors or subcontractors may enter into any contract or arrangement in connection
with the tenant-based programs in which any of the following classes of persons has any interest,
direct or indirect, during tenure or for 1 year thereafter: any present or former member or officer
of the authority (except a participant commissioner); any employee of the authority; or any
contractor, subcontractor, or agent of the authority, who formulates policy or who influences
decisions with respect to the programs.

The Ohio Revised Code at 2921.42, paragraph A, states that no public official should have an
interest in the profits or benefits of a public contract entered into by or for the use of the political
subdivision or governmental agency or instrumentality with which the public official is
connected or have an interest in the profits or benefits of a public contract that is not led by
competitive bidding if required by law and that involves more $150.

The Ohio Revised Code at 3735.29 states that no member or employee of an authority should
have any interest, directly or indirectly, in any contract for property, materials, or services to be
acquired by said authority.

The Authority’s Administrative Order 11, section B-XIII, part A, states that it is the policy of the
Authority to prohibit its employees from engaging in any activity, practice, or act, which
conflicts with the interests of the Authority. No employee should have a conflict of interest in
any aspect of his or her employment. No employee should become involved in any business
activities that give rise to an actual or an apparent conflict of interest. All employees have the
duty to be entirely free from the influence of any conflict of interest when they represent the
Authority in any business dealings or make any recommendations which may influence an action
of the Authority. No employee should have any interest, directly or indirectly, in any contract
for property, materials, or services to be acquired by the Authority.

Part D states that in cases in which any actual, potential, apparent, or implied conflict arises, the
employee has a duty to immediately disclose, in writing, such conflict to the director of internal
audit. The employee is obligated to discontinue his or her involvement in the area of conflict
until otherwise advised. The director of internal audit or his or her designee must review such


                                                   53
statements and make any additional investigation in cooperation with the director of the
department. All of those instances which appear to present the possibility of material conflicts of
interest must be reported to the director of human resources, the. chief general counsel, and the
chief of staff and operations, who must review the final disposition of each situation and
maintain appropriate records. In the event that there is disagreement, the case will be presented
to the chief executive officer for resolution. If an employee has any doubt about whether his or
her situation poses a conflict of interest, the employee should exercise the utmost caution, report
the potential conflict, and cease engaging in the activity until a resolution is reached.

Part E states that failure to disclose any actual, potential, apparent, or implied conflicts of
interest, as set forth in this policy, should result in disciplinary action up to and including
immediate discharge. Part F states that periodically, employees may be asked to submit a formal
statement to the Authority asking for disclosure of any information relating to the possibility of a
conflict of interest. Part G states that the monitoring of the conflict-of-interest policy must be
under the surveillance of the audit committee of the board of commissioners of the Authority. At
least once each year, the chief executive officer, his designee, or the director of internal audit
should inform the audit committee of the Authority’s administrative activity and all significant
events relating to this policy, which occurred during that year.

Finding 3

HUD regulations at 24 CFR 982.204(a) state that except for special admissions, participants
must be selected from the public housing authority waiting list. The authority must select
participants from the waiting list in accordance with admission policies in the authority’s
administrative plan.

HUD regulations at 24 CFR 982.206(a) state that when the public housing authority opens a
waiting list, it must give public notice that families may apply for tenant-based assistance. The
public notice must state where and when to apply. The authority must give the public notice by
publication in a local newspaper of general circulation and also by minority media and other
suitable means. The notice must comply with HUD fair housing requirements. The public
notice must state any limitations on who may apply for available slots in the program.
Subparagraph (b) provides criteria defining what families may apply. According to
subparagraph (b), the authority may adopt criteria defining what families may apply for
assistance under a public notice. If the waiting list is open, the authority must accept
applications from families for whom the list is open unless there is good cause for not accepting
the application. Subparagraph (c) addresses closing the waiting list. According to subparagraph
(c), if the authority determines that the existing waiting list contains an adequate pool for use of
available program funding, it may stop accepting new applications or may accept only
applications meeting criteria adopted by it.

HUD regulations at 24 CFR 982.207(a) state that the public housing authority may establish a
system of local preferences for selection of families admitted to the program. Authority
selection preferences must be described in the authority’s administrative plan. The authority’s
system of local preferences must be based on local housing needs and priorities, as determined
by the authority. In determining such needs and priorities, the authority must use generally


                                                 54
accepted data sources. The authority may limit the number of applicants that may qualify for
any local preference.

Subparagraph (b)(3) states that the public housing authority may adopt a preference for
admission of families that includes a person with disabilities. However, the authority may not
adopt a preference for admission of persons with a specific disability.

Subparagraph (c) states that the public housing authority’s system of preferences may use either
of the following to select among applicants on the waiting list with the same preference status:
date and time of application or a drawing or other random choice technique.

Subparagraph (e) states that the method for selecting applicants from a preference category must
leave a clear audit trail that can be used to verify that each applicant has been selected in
accordance with the method specified in the administrative plan.

According to the Authority’s voluntary compliance agreement with HUD, section F, paragraph
8, Participation in Money Follows the Person Initiative, the Authority agrees, as part of its
overall efforts to provide affordable, accessible housing for persons with disabilities in its
serving communities, to become an active coordinating agency in the Money Follows the Person
Rebalancing Initiative funded through the Centers for Medicare and Medicare Services and to
participate in the Initiative work group created by the Ohio Department of Jobs and Family
Services. The Authority will work closely with the local Money Follows the Person Initiative
network to facilitate applications by or on behalf of disabled individuals eligible for participation
in the Money Follows the Person Initiative. The Authority will incorporate the necessary
preferences and other written policies, including but not limited to provisions and a Housing
Choice Voucher program administrative plan that will grant the highest priority for available
housing for individuals eligible for participation in the Money Follows the Person Initiative. The
deadlines for these activities will be consistent with correspondence deadlines for modifying
admissions- and occupancy-related documents specified in this agreement. As part of its
quarterly and semiannual reporting requirements, the Authority will provide HUD with updated
information on participation in the Money Follows the Person Initiative.

Paragraph 9, Supportive Service Referral Process, states that the Authority is obligated to
continue any and all special purpose vouchers it has received to otherwise qualified disabled
families. The Authority must continue, to the extent practicable, to issue vouchers to nonelderly
disabled families upon turnover. “To the extent practicable” means that all nonelderly disabled
families on the Authority’s waiting list have been issued these turnover vouchers and public
housing authority outreach efforts specifically directed to nonelderly disabled families has
yielded no eligible applicants. Failure to serve disabled families as required will result in
forfeiture of the voucher. The Authority must also enter information regarding the issuance of
vouchers to participating families under this program on the family report (form HUD-50058)
using the assigned special codes. The Authority must maintain these special program codes on
any and all future submissions for families issued such vouchers and participating in the special
programs.




                                                 55
